         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls Over
Subcontract Administration by
the National Renewable Energy
Laboratory




OAS-M-04-02                            March 2004
MANAGEMENT CONTROLS OVER SUBCONTRACT
ADMINISTRATION BY THE NATIONAL RENEWABLE ENERGY
LABORATORY


TABLE OF
CONTENTS



              Subcontract Administration

              Details of Finding ................................................................................ 1

              Recommendations ............................................................................. 3

              Comments ........................................................................................... 4


              Appendices

              1. Objective, Scope, and Methodology .......................................... 6

              2. Prior Reports ................................................................................. 8

              3. Management Comments ...........................................................10
SUBCONTRACT ADMINISTRATION

Procurement Cycle   The National Renewable Energy Laboratory (NREL) did not always
Management          adequately protect Government property in the hands of its
                    subcontractors, and did not ensure that the Government's financial
                    position was protected by closing out subcontracts in a timely manner.

                                            Property Accountability

                    Although required by Department of Energy Acquisition Regulations,
                    NREL did not track the location of approximately $15 million of
                    experimental and other property that had been purchased or fabricated
                    by its subcontractors. Of this amount, approximately
                    $8.3 million was being used on active contracts, while the remainder
                    was allocated to completed or expired tasks. In one example, we
                    observed that NREL had not included in the inventory a major item of
                    experimental equipment valued at approximately $990,000. In another
                    example, one subcontractor told us that it had held experimental wind
                    turbines valued at $151,000 whose fabrication had been completed at
                    least 6 years earlier on a contract that has since expired.

                    Even when included in property management records, we observed that
                    NREL did not periodically verify the location or condition of
                    subcontractor held property. Despite repeated attempts, we were unable
                    to locate or verify the existence of Government provided property for
                    8 of 24 subcontracts we reviewed. According to NREL property
                    records, these subcontractors held a total of about $1 million in
                    Government property. Five subcontractors we contacted that held
                    property valued at $881,000 would not verify their holdings, two
                    subcontractors with property valued at $33,000 could not be reached
                    and one subcontractor told us that it could not locate equipment valued
                    at over $42,000. Although we did not validate its assertion, NREL
                    officials told us that subsequent to our audit and after renewed efforts,
                    they were able to obtain verification of the existence of potentially
                    missing property from subcontractors.

                                             Subcontract Closeout

                    Our testing also revealed that NREL had not acted in a timely manner
                    to reclaim excess funds or Government property associated with
                    completed contracts. As of November 2003, NREL had 635
                    subcontracts, with as much as $3 million that could potentially be
                    de-obligated, had it taken timely actions to closeout the contracts.
                    Additionally, approximately $2.9 million in Government provided or
                    subcontractor fabricated property associated with completed or expired



Page 1                                                                   Details of Finding
                           contracts had not been recovered. Despite recent efforts to decrease
                           backlogs, since Fiscal Year (FY) 2000, NREL's backlog of subcontracts
                           requiring closeout had grown by over 25 percent. Additionally,
                           10 subcontracts had not been closed out after 15 or more years. NREL
                           officials told us that it had satisfied its performance measure related to
                           contract closeout in recent years; however, we concluded that it had
                           done so by focusing its efforts primarily on fixed price or other
                           contracts not requiring significant effort.


Property and Performance   Issues with management of the procurement cycle occurred because
Management                 NREL did not follow Departmental regulations or best practices related
                           to property management. The Golden Field Office (Golden) also had
                           not established performance measures focused on the timely closeout of
                           contracts, and the recovery of excess funds and property. For example,
                           NREL:

                                •   Incorrectly applied accounting capitalization requirements
                                    instead of inventorying experimental property as required by
                                    the Department's Property Management Regulations;
                                •   Did not ensure that subcontractors submitted annual
                                    inventories and did not perform required physical inventories
                                    of subcontractor held property; and,
                                •   Did not always coordinate information related to the
                                    acquisition and disposition of property by subcontractors.

                           According to a Golden official, problems in identifying, tracking and
                           controlling personal property in the possession of subcontractors is a
                           long-standing issue and was identified in a Contractor Personal
                           Property System Review in 1994. In 1999, Golden closed this finding
                           based on completion of NREL's corrective action plan. However,
                           Golden did not verify that NREL had actually implemented the
                           corrective actions.

                           Additionally, we found that although Golden had established a
                           performance measure to monitor progress in closing completed
                           subcontracts, the measure required only that NREL closeout 600
                           contracts and did not address timeliness. As a result, NREL closed out
                           those awards that took the least amount of time and did not consider
                           items such as expediting contracts that had large amounts of
                           unexpended funds that could be de-obligated or perishable property that




Page 2                                                                           Details of Finding
                     could be recovered. As evidenced by its growing backlog, the measure
                     was not effective in reducing the overall number of contracts requiring
                     closeout. During discussions related to the status of closeout efforts, an
                     NREL official told us that the laboratory is developing a plan to reduce
                     the backlog.


Maximizing Returns   Inefficiencies in the management of the NREL procurement cycle may
                     have left valuable property vulnerable to loss or diversion, and deprived
                     the Government of the benefit of funds and property valued at nearly
                     $22 million. Without an accurate and effective property control system,
                     NREL may have lost control of Government property that, while
                     devalued due to use or the passage of time, could have been reclaimed
                     and put to other uses. Absent prompt action, perishable items of
                     equipment such as computers or other technology related items are
                     subject to obsolescence. The lack of a prompt contract closeout
                     function has also had other adverse budgetary impacts. For example, as
                     much as $3 million in potentially excess funds have not been reclaimed
                     and used to address budgetary shortfalls or complete high priority
                     projects. Furthermore, the lack of timely closeout did not permit NREL
                     to promptly identify a $1 million obligation to a subcontractor that
                     resulted in FY 2004 budget problems.


                     We recommend that the Manager of the Golden Field Office:
RECOMMENDATIONS
                          1. Include controllable Government-owned experimental
                             equipment procured or fabricated by subcontractors in the
                             property management system;

                          2. Ensure that subcontractors track controllable Government-
                             owned property, that periodic inventories of such property are
                             performed, and that results are reconciled with NREL property
                             records;

                          3. Direct NREL to coordinate procurement and property
                             management functions to identify controllable Government-
                             owned property purchased by or for subcontractors;

                          4. Verify that corrective actions have been taken by NREL
                             before closing out findings;




Page 3                                                                    Recommendations
                              5. Develop performance measures for NREL focused on the
                                 timely completion of subcontract closeouts and safeguarding
                                 controllable Government property held by subcontractors;
                                 and,

                              6. Complete development of and implement plans to decrease the
                                 NREL backlog of subcontracts awaiting closeout.


MANAGEMENT REACTION   The Manager of the Golden Field Office concurred with all of the
                      report's recommendations and agreed to implement corrective actions.
                      The Manager however, disagreed with certain data and conclusions, and
                      requested that we delete certain statements in the report. For a variety
                      of reasons, management believed that:

                          •     The unpaid balance potentially available for de-obligation
                                amounted only to about $425,000 using Federal Acquisition
                                Regulation criteria for contract closeout;
                          •     NREL did not focus its closeout efforts on fixed price contracts
                                and other contracts that did not require significant effort, and
                                had closed out a significant number of cost-type contracts;
                          •     References to $14.6 million of experimental property being at
                                risk should be deleted from the report because there was no
                                expectation of residual value for such property and much of the
                                property is not easily subject to diversion or substantially at
                                risk; and,
                          •     Expenditures of $1 million associated with the closeout of a
                                subcontract had not caused budget problems.


                      Manageme nt's proposed actions are generally responsive to our
                      recommendations. While we have made a number of technical
AUDITOR COMMENTS      modifications to the report, we do not concur with management's
                      suggestions that we delete or significantly modify certain statements in
                      the report. For example, although we recognize that NREL is not
                      subject to them, at the urging of management we used the FAR as a
                      benchmark for calculating the amount of funds potentially available for
                      de-obligation. Based on this standard, we reduced our estimate of
                      available funds to as much as $3 million attributable to 635
                      subcontracts that exceeded FAR contract closeout guidelines.




Page 4                                                                              Comments
         Regarding our conclusion that NREL had focused on closing out
         fixed-price contracts, we reached that conclusion based on our review
         of available contract closeout data.

         We also disagree that references to property accountability problems
         should be removed from the report. The observed weaknesses
         demonstrate that NREL, as required by its contract, needs to comply
         with the Department's Property Management Regulations regarding
         control of subcontractor held property. While we acknowledge that
         subcontractors were eventually able to verify items that could not be
         located during the audit, significant time and effort was required to
         obtain subcontractor representations because the items were not
         routinely inventoried or physically verified. We also continue to
         believe that various types of property, including experimental items,
         may have residual value if recovered in a timely manner. For example,
         one subcontract continued to use equipment on subsequent
         non-Government funded research. In addition, wind turbines fabricated
         under one subcontract are still in use in the field. We continue to
         believe that some property such as computer equipment was at risk of
         loss or diversion, and that the lack of strong inventory controls
         increases the risk that property will not be reclaimed at closeout and put
         to other uses.

         The information regarding the $1 million obligation affecting NREL's
         budget was provided by the Acting Program Manager of the Freedom
         Car Program during a meeting with the Energy Efficiency and
         Renewable Energy Office Deputy Assistant Secretary for Operations.
         The Acting Program Manager disagreed with NREL's contention that
         no budget problems resulted from the $1 million owed to a
         subcontractor. He explained that this item was not included in the
         FY 2004 budget and has created a problem.

         In spite of management's assertion in its comments that we deemed
         performance to be acceptable in nine procurement related areas, we
         made no such determination. Rather, we decided to focus our attention
         on areas that we believed had the highest control risk. The purpose of
         our audit was not to express an opinion regarding performance in those
         areas and we did not render such an opinion. As specifically noted in
         Appendix I, our review was limited and would not necessarily disclose
         all internal control deficiencies that may have existed at the time of our
         audit.




Page 5                                                                 Comments
Appendix 1

OBJECTIVE     The objective of the audit was to determine whether the National
              Renewable Energy Laboratory (NREL) was procuring goods and
              services in accordance with Department policies and best business
              practices.


SCOPE         The audit was performed from May to November 2003 at the NREL
              located in Golden, CO. Additional audit work was performed at the
              Department's Golden Field Office (Golden), and at Headquarters in
              Washington, D.C. The scope of the audit included a review of
              subcontracts that were in various stages of the procurement cycle, e.g.
              active, completed, and closed.


              To accomplish our objective, we:
METHODOLOGY
                   •   Reviewed laws, regulations, contractual requirements, as well
                       as policies and procedures relevant to NREL's subcontracting,
                       property management, and subcontract closeout activities;

                   •   Reviewed NREL's annual plan, related performance measures,
                       and Golden's evaluations of subcontractor performance;

                   •   Selected a judgmental sample of 40 active subcontracts and
                       conducted a limited review of related subcontract files to
                       determine whether documentation existed to support NREL's
                       subcontract award procedures; whether work performed and
                       costs incurred by subcontractors were monitored; and how
                       and/or whether NREL controlled and tracked Government
                       property;

                   •   Selected an additional judgmental sample of 10 completed
                       subcontracts, and 10 closed subcontracts to determine whether
                       closeout procedures were followed and if closeout activities
                       were timely;

                   •   Reviewed 43 subcontracts to determine whether Government-
                       furnished property is controlled and accounted for at the
                       subcontract level, and attempted to contact the subcontractors
                       to request confirmation of all property items in their
                       possession;




Page 6                                         Objective, Scope, and Methodology
Appendix 1 (continued)

                          •   Interviewed NREL management and personnel from various
                              laboratory departments;

                          •   Interviewed Departmental officials from Headquarters and
                              Golden; and,

                          •   Used Federal Acquisition Regulation criteria and historical
                              data provided by NREL to calculate potential amount of de-
                              obligations.

                     The audit was conducted in accordance with generally accepted
                     Government auditing standards fo r performance audits and included
                     tests of internal controls and compliance with laws and regulations to
                     the extent necessary to satisfy the audit objective. Accordingly, we
                     assessed internal controls with regard to procurement administration
                     and the management of Government property. Because our review was
                     limited, it would not necessarily disclose all internal control
                     deficiencies that may have existed at the time of our audit. We only
                     used computer generated data to select our samples, therefore, we did
                     not test for data reliability.

                     We held an exit conference with management on March 11, 2004.




Page 7                                               Objective, Scope, and Methodology
Appendix 2
                                           PRIOR REPORTS


    •    University of California's Costs Claimed and Related Internal Controls for Operation of
         Los Alamos National Laboratory (DOE/IG-0596, April 2003). The audit found internal
         control weaknesses in the Los Alamos National Laboratory (Los Alamos) audit function, its
         financial system reconciliation, payroll and travel approval processes, financial management
         personnel turnover and financial system review and approval. Further, the audit identified a
         significant backlog in the completion of required audits of laboratory contracts. The report
         included recommendations to require the University to realign its audit function, to take
         action to review and approve the Los Alamos financial systems and to establish as a project
         the overhaul of Los Alamos financial systems.

    •    Management Controls Over Subcontract Administration by the Argonne National
         Laboratory (OAS-M-04-01), March 2004). The audit disclosed that Argonne had not
         always ensured adequate competition when procuring goods and services, awarded
         contracts to sources that lacked necessary credentials or experience that would justify sole
         source selections, and did not adequately protect Government property in the hands of
         subcontractors. As a result, the Department lacked assurance that it received the lowest
         price or highest quality goods and services and that qualified vendors had access to
         Federally- funded contracts. Also, taxpayer-provided property purchased by subcontractors
         may have been at risk of loss or diversion.

    •    Special Inquiry: Operations at Los Alamos National Laboratory (DOE/IG-0584, January
         2003). The inquiry disclosed a series of actions by Los Alamos officials that had the effect
         of obscuring serious property and procurement management problems and weakened or
         overrode relevant internal controls. Specifically, there was inadequate or untimely analysis
         of, and inquiry into, property loss or theft and security issues; a lack of personal
         accountability for property; a substantial degree of dysfunction in the Laboratory's
         communication and assignment of responsibilities for the handling of property loss and theft
         concerns; and, inadequate controls over procurement and property systems. The report also
         noted that the National Nuclear Security Administration had completed an assessment of the
         Laboratory's "Personal Property Management" and "Procurement Management," in
         December 2002, and rated Los Alamos as "excellent" in both categories. The facts
         disclosed during the inquiry suggested that the Department's process for arriving at such
         ratings warranted review by appropriate Department officials.

    •    Special Report on Management Challenges at the Department of Energy
         (DOE/IG-0580, December 2002). Based on ongoing work at Los Alamos, the Office of
         Inspector General (OIG) observed a substantial degree of dysfunction in the Laboratory's




Page 8                                                                                        Prior Reports
Appendix 2 (continued)

         handling of property loss and theft. The OIG and other reviewers identified significant
         weaknesses in internal controls over property and the use of purchase cards.

    •    Audit Report on Procurement Administration at Brookhaven National Laboratory
         (CR-B-02-02, August 2002). Brookhaven did not always properly administer
         procurements. Specifically, Brookhaven did not always provide the Department with
         required advance notice for certain procurement actions; prepare adequate justification for
         non-competitive procurements or exemptions from the Buy American Act; and accurately
         maintain procurement data on small business contracting and small purchases.




Page 9                                                                                       Prior Reports
Appendix 3




Page 10      Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
                                                                             IG Report No.: OAS-M-04-02

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________            Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www. ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
